HHS/OIG-Audit--"Review of Medicare Payments for Beneficiaries Reported as Institutionalized by Penn State Geisinger Health Plan, (A-03-00-00010)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries Reported as Institutionalized by Penn State Geisinger Health Plan," (A-03-00-00010)
January 16, 2001
Complete
Text of Report is available in PDF format (946 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Medicare pays a higher capitation rate for Medicare beneficiaries who are institutionalized. This final report points
out that the Penn State Geisinger Health Plan (PSGHP) claimed the higher rate for beneficiaries that were not institutionalized
for the period(s) claimed. Based on a statistical sample, we estimate that overpayments totaled $306,269 over the 3-year
period ending December 31, 1999. In addition to financial adjustments, we recommended that PSGHP strengthen the internal
controls for identifying, monitoring, and billing the Medicare program for institutional status beneficiaries.